»

MICHAEL OWEN HARRIOT. Plaintiff - Appellant v. DOJ, Jeff Sessions-Former U.S. Attorney
General; IRENE JOSEY, Former U.S. Attorney; STACEY D HAYNES, AUSA; SCARLET A. WILSON,
Former AUSA; ROBERT WAIZENHOFFER, FBI Special Agent; RODNEY PRITCHARD, FBI Special
Agent; CHARLES KLATZ, FBI Special Agent; FBI; UNKNOWN INS AGENTS, Department of
Homeland Security; UNKNOWN SHERIFFS, Richland County Sheriff Department, Defendants Appellees
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
2020 U.S. App. LEXIS 8312
No. 19-7344
March 16, 2020, Filed
Editorial Information: Prior History
Harriot v. DOJ, 788 Fed. Appx. 226, 2019 U.S. App. LEXIS 37990 (4th Cir. S.C., Dec. 20, 2019)
{2020 U.S. App. LEXIS 1JMICHAEL OWEN HARRIOT. Plaintiff Appellant, Pro se, Estill, SC.
Judges: Judge King, Judge Floyd, and Judge Harris.

“ Counsel

Opinion

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge King, Judge Floyd, and Judge Harris.

*

CIRHOT

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

f

96039071

i

MICHAEL OWEN HARRIOT. Plaintiff - Appellant, v. DOJ, Jeff Sessions-Former U.S. Attorney
General; IRENE JOSEY, Former U.S. Attorney; STACEY D HAYNES, AUSA; SCARLET A. WILSON,
Former AUSA; ROBERT WAIZENHOFFER, FBI Special Agent; RODNEY PRITCHARD, FBI Special
Agent; CHARLES KLATZ, FBI Special Agent; FBI; UNKNOWN INS AGENTS, Department of
Homeland Security; UNKNOWN SHERIFFS, Richland County Sheriff Department, Defendants Appellees.
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
788 Fed. Appx. 226; 2019 U.S. App. LEXIS 37990
No. 19-7344
December 17, 2019, Submitted
December 20, 2019, Decided
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History
{2019 U.S. App. LEXIS 1}Appeal from the United States District Court for the District of South Carolina,
at Columbia. (3:18-cv-03164-JFA). Joseph F. Anderson, Jr., Senior District Judge.Harriot v. DOJ, 2019
U.S. Dist. LEXIS 155590 (D.S.C., Sept. 11, 2019)

i

Disposition:
AFFIRMED.
Michael Owen Harriot. Appellant, Pro se.
Counsel
Judges: Before KING, FLOYD, and HARRIS, Circuit Judges.
Opinion

(788 Fed. Appx. 227} PER CURIAM:
Michael Owen Harriot appeals the district court's order accepting the recommendation of the
magistrate judge and dismissing under 28 U.S.C. § 1915(e)(2)(B) (2012) his complaint filed pursuant
to Bivens v. Six Unknown Named Agents of Fed. Bureau of Narcotics, 403 U.S. 388, 91 S. Ct. 1999,
29 L. Ed. 2d 619 (1971). We have reviewed the record and find no reversible error. Accordingly, we
deny Harriot's motion for transcripts at government expense and affirm based on the district court's
holding that Harriot's complaint is barred by the statute of limitations. Harriot v. DOJ, No.
3:18-CV-03164-JFA, 2019 U.S. Dist. LEXIS 155590 (D.S.C. Sept. 12, 2019). We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials before
this court and argument would not aid the decisional process.
AFFIRMED
t

A04CASES

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

)
-"M

»

Michael Owen Harriot. #96039-071 Plaintiff, vs. DOJ, Jeff Sessions, Former U.S. Attorney General;
Irene Josey, Former U.S. Attorney; Stacey D. Haynes, AUSA; Scarlet A. Wilson, Former AUSA;
Robert Waizenhofer, FBI Special Agent; Rodney Pritchard, FBI Special Agent; Charles Klatz, FBI
Special Agent; Unknown I.N.S. Agents, Department of Homeland Security, and Unknown Sheriffs,
Richland County Sheriff Department, Defendants.
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF SOUTH CAROLINA
2019 U.S. Dist. LEXIS 155590
C/A No. 3:18-3164-JFA-SVH
September 11, 2019, Decided
September 12, 2019, Filed
Editorial Information: Subsequent History
Affirmed by Harriot v. DOJ, 2019 U.S. App. LEXIS 37990 (4th Cir. S.C., Dec. 20, 2019)
Editorial Information: Prior History
Harriot v. DOJ, 2018 U.S. Dist. LEXIS 227684 (D.S.C., Nov. 29, 2018)

Counsel

{2019 U.S. Dist. LEXIS 1}Michael Owen Harriot. Plaintiff, Pro se, Estill,

SC.
Judges: Joseph F. Anderson, Jr.. United States District Judge.
Opinion
Opinion by:

Joseph F. Anderson, Jr.

f

Opinion

ORDER
I. INTRODUCTION
Michael Owen Harriot. ("Plaintiff"), a prisoner proceeding pro se and in forma pauperis, brings this
action claiming a violation of his constitutional rights pursuant to 42 U.S.C. § 1983. (ECF No. 1).
Plaintiff seeks monetary damages and injunctive relief. (ECF No. 1). (ECF No. 1). In accordance with
28 U.S.C. § 636(b) and Local Civil Rule 73.02(B)(2)(c) (D.S.C.), the case was referred to the
Magistrate Judge.
The Magistrate Judge assigned to this actionl prepared a thorough Report and Recommendation
("Report") and opines that Plaintiff's complaint should be dismissed without issuance and service of
. process. (ECF No. 16). The Report sets forth, in detail, the relevant facts and standards of law on
this matter, and this Court incorporates those facts and standards without a recitation.
II. LEGAL STANDARD
The Court is charged with making a de novo determination of those portions of the Report to which
specific objections are made, and the Court may accept, reject, or modify, in whole or in part, the
recommendation of the Magistrate Judge, or recommit the matter to the Magistrate Judge with
»

lydcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

98039071

instructions.{2019 U.S. Dist. LEXIS 2} See 28 U.S.C. § 636(b)(1). However, a district court is only
required to conduct a de novo review of the specific portions of the Magistrate Judge's Report to
which an objection is made. See 28 U.S.C. § 636(b); Fed. R. Civ. P. 72(b); Carniewski v. W. Virginia
Bd. ofProb. & Parole, 974 F.2d 1330 (4th Cir. 1992). In the absence of specific objections to portions
of the Report of the Magistrate, this Court is not required to give an explanation for adopting the
recommendation. See Camby v. Davis, 718 F.2d 198, 199 (4th Cir. 1983).
III. DISCUSSION
The Report recites the factual and procedural background giving rise to this action in detail, which is
incorporated by reference. Briefly, Plaintiff alleges that under § 1983, he was illegally arrested
without probable cause or a warrant and was illegally questioned and detained. (ECF No. 1). Further,
the Court did not have jurisdiction over him because he had not committed any federal offenses.
(ECF No. 1). Plaintiff seeks monetary damages and injunctive relief. (ECF No. 1).
A. Plaintiffs Claims Related to his Conviction and Sentence
The Magistrate Judge correctly opines that Plaintiffs claims concerning his alleged false arrest and
imprisonment are barred by the holding in Heck v. Humphrey, 512 U.S. 477, 114 S. Ct. 2364, 129 L.
Ed. 2d 383 (1994). In Heck, the Supreme Court held that "in order to recover damages from
allegedly unconstitutional conviction or imprisonment, or for other harm whose unlawfulness{2019
U.S. Dist. LEXIS 3} would render a conviction or sentence invalid,...a § 1983 Plaintiff must prove
that the conviction or sentence has been reversed on direct appeal, expunged by executive order,
declared invalid by a state tribunal authorized to make such a determination, or called into question
by a federal court's issuance of a writ of habeas corpus, 28 U.S.C. § 2254." The holding in Heck also
applies to declaratory and injunctive relief if a judgment in the Plaintiff's favor would necessarily
imply the invalidity of the conviction. See Edwards v. Balisok, 520 U.S. 641, 648, 117 S. Ct. 1584,
137 L. Ed. 2d 906 (1997) (Heck bars declaratory judgment action challenging validity of state
criminal conviction).
As the District Court, we must "consider whether judgment in favor of the Plaintiff would necessarily
imply the invalidity of his conviction or sentence; if it would, the complaint must be dismissed unless
the Plaintiff can demonstrate the conviction or sentence has already been invalidated." Heck, 512
U.S. at 487. The Report submits that a judgment in Plaintiff's favor on his false arrestment and
imprisonment claims would necessarily imply the invalidity of his subsequent conviction. (ECF No.
16). However, in his Objections to the Report, Plaintiff states that Heck does not bar his claims
because he was not "arrested{2019 U.S. Dist. LEXIS 4} with a valid facially warrant." (ECF No. 19).
Heck does not distinguish between cases in which Plaintiffs were or were not arrested with a valid
warrant. Rather, Heck applies when a Plaintiff brings a § 1983 action alleging the unconstitutionality
of his conviction or imprisonment and seeks monetary damages or injunctive relief. As Plaintiff has
asserted claims for false arrest and imprisonment under § 1983 and seeks millions of dollars in
damages and injunctive relief, the Magistrate Judge properly applied Heck to Plaintiff's complaint. By
applying Heck, Plaintiff's claims are barred unless Plaintiff can demonstrate or allege that he has
successfully challenged his convictions. Although Plaintiff filed objections to the Report, he was
unable to demonstrate that his conviction has been successfully challenged. (ECF No. 19).
Therefore, the Court accepts the recommendation of the Magistrate Judge and dismisses these
claims.
B. Statute of Limitations
The Magistrate Judge correctly opines that Plaintiffs civil rights claims are barred by South
Carolina's statute of limitations. (ECF No. 16). Under South Carolina law, the statute of limitations for

lydcases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

a personal injury is three years. See S.C. Code Ann. § 15-3-530(5). As the Report{2019 U.S. Dist.
LEXIS 5} states, Plaintiffs complaint concerns events that occurred in July 1999 and as such, the
limitations period for Plaintiff to file suit against Defendants has expired. See Finch v. McCormick
Corr. Ins., CIA No. 4:11-858-JMC-TER, 2012 U.S. Dist. LEXIS 96631, 2012 WL 2871665, at 3
(D.S.C. June 15, 2012).
In the Objections, Plaintiff submits that a cause of action under § 1983 accrues when "the Plaintiff
possesses sufficient facts about the harm done to him that reasonably inquiry will reveal his cause of
action. See United State v. Kubrick, 444 U.S. 111, 122-24, 100 S. Ct. 352, 62 L. Ed. 2d 259 (1979)."
(ECF No. 19). However, Plaintiff's reliance on case law is misplaced because Kubrick refers to the
statute of limitations for claims arising under the Federal Tort Claims Act. U.S. v. Kubrick, 444 U.S.
III, 100 S. Ct. 352, 353, 62 L. Ed. 2d 259 (1979). Whereas, Plaintiff's cause of action arises under §
1983. The Supreme Court has made clear that "federal law looks to the law of the state in which the
cause of action arose" to determine the applicable statute of limitations. See Wallace v. Kato, 549
U.S. 384, 387, 127 S. Ct. 1091, 166 L. Ed. 2d 973 (2007)." Accordingly, South Carolina statute of
limitations law applies, and Plaintiff's claims are time barred. Therefore, the Court accepts the
recommendation of the Magistrate Judge and Plaintiffs civil rights claims are dismissed.
C. Futility of Amendment
The Magistrate Judge recommends Plaintiff not be allowed to amend his complaint because any
amendment would be futile. (ECF No. 16).{2019 U.S. Dist. LEXIS 6} In his Objections, Plaintiff
refers to Federal Rule of Civil Procedure 15(a) which states "a party may amend its pleading once as
a matter of course within 21 days of serving it or... 21 days after service of responsive pleading."
(ECF No. 19). Plaintiff argues that "no written consent" is needed at this point to amend the
complaint. The Court disagrees as the complaint was filed June 29, 2018, and as such, is well
passed the 21-day period of allowance. (ECF No. 1).

»

Further, Plaintiff argues that "justice so requires" an amendment because Plaintiff "need[s] to add
more defendants and give the Defendants Pritchard, Klatz, and other fair notice of what their cause
of action that injured] the Plaintiff and "amend[ing] complaint is necessary to cure deficiencies."
(ECF No. 19). However, Courts should deny leave to amend when the amendment would be futile.
SeeEdwardsv. City of Goldsboro, 178 F.3d 231,242 (4th Cir. 1999). "An amendment is futile if the
claim would still be dismissed after amendment." See United States ex rel. Wilson v. Kellogg Brown
Root, Inc., 525 F.3d 370, 376 (4th Cir. 2008). Because Plaintiff's claims for false arrest and
imprisonment are barred by Heck and his civil rights claims are barred by the statute of limitations,
the Court agrees with the Magistrate Judge that any amendment would be futile. Therefore, the
Court accepts the Magistrate Judge's{2019 U.S. Dist. LEXIS 7} recommendation and denies Plaintiff
leave to amend the complaint.
IV. CONCLUSION
After carefully reviewing the applicable laws, the record in this case, the Report, and the objections
thereto, this Court finds the Magistrate Judge's recommendation fairly and accurately summarizes
the facts and applies the correct principles of law. Accordingly, this Court adopts the Magistrate
Judge's Report and Recommendation. (ECF No. 16). Thus, Plaintiff's complaint is dismissed without
issuance and service of process and Plaintiff is denied leave to amend his complaint.
IT IS SO ORDERED.
September 11, 2019
Columbia, South Carolina

lydcases
t

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

Isl Joseph F. Anderson, Jr.
Joseph F. Anderson, Jr.
United States District Judge
Footnotes

f

1
The Magistrate Judge's review is made in accordance with 28 U.S.C. § 636(b) and Local Civil Rule
73.02(B)(2)(c) (D.S.C.). The Magistrate Judge makes only a recommendation to this Court. The
recommendation has no presumptive weight, and the responsibility to make a final determination
remains with the Court. Mathews v. Weber, 423 U.S. 261,96 S. Ct. 549, 46 L. Ed. 2d 483 (1976).
The Court is charged with making a de novo determination of those portions of the Report and
Recommendation to which specific objection is made, and the Court may accept, reject, or modify, in
whole or in part, the recommendation of the Magistrate Judge, or recommit the matter to the
Magistrate Judge with instructions. See 28 U.S.C. § 636(b).

t

lydcases

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.
f

96039071

&
1

9

Michael Owen Harriot. #96039-071, Plaintiff, vs. DOJ, Jeff Sessions, former U.S. Attorney General;
Irene Josey, Former U.S. Attorney; Stacy D. Haynes, AUSA; Scarlet A. Wilson, Former AUSA;
Robert Waizenhofer, FBI Special Agent; Rodney Pritchard, FBI Special Agent; Charles Klatz, FBI
Special Agent; FBI; Unknown I.N.S. Agents, Department of Homeland Security, and Unknown
Sheriffs, Richland County Sheriff Department, Defendants.
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF SOUTH CAROLINA
2018 U.S. Dist. LEXIS 227684
C/A No.: 3:18-3164-JFA-SVH
November 29, 2018, Decided
November 29, 2018, Filed
Editorial Information: Subsequent History
Adopted by, Dismissed by Harriot v. DOJ, 2019 U.S. Dist. LEXIS 155590 (D.S.C., Sept. 11, 2019)
Editorial Information: Prior History
»

Harriot v. DOJ, 2018 U.S. Dist. LEXIS 202965 (D.S.C., Nov. 29, 2018)

Counsel

{2018 U.S. Dist. LEXIS 1}Michael Owen Harriot, Plaintiff, Pro se, Estill

SC.
Judges: Shiva V. Hodges, United States Magistrate Judge,
Opinion
Opinion by:

Shiva V. Hodges
Opinion

REPORT AND RECOMMENDATION
Michael Owen Harriot ("Plaintiff"), proceeding pro se and in forma pauperis, is an inmate
incarcerated at Federal Correctional Institution Estill in the custody of the Federal Bureau of Prisons.
He filed this action against the Department of Justice ("DOJ"), former United States Attorney General
Jeff Sessions, former United States Attorney Irene Josey ("Josey"), Assistant United States Attorney
("AUSA") Stacy D. Haynes, former AUSA Scarlet A. Wilson ("Wilson"), the Federal Bureau of
Investigation ("FBI"), FBI Special Agent Robert Waizenhofer ("Waizenhofer"), FBI Special Agent
Rodney Pritchard, FBI Special Agent Charles Klatz, unknown Immigration and Naturalization Service
("INS") Agents, Department of Homeland Security, and unknown Richland County Sheriff Deputies,
alleging a violation of his constitutional rights.
*

Pursuant to the provisions of 28 U.S.C. § 636(b)(1) and Local Civ. Rule 73.02(B)(2)(e) (D.S.C.), the
undersigned is authorized to review such complaints for relief and submit findings and
recommendations to the district judge. For the reasons that follow, the undersigned recommends
that{20l8 U.S. Dist. LEXIS 2} the district judge dismiss the complaint in this case without prejudice
and without issuance and service of process.
I. Factual and Procedural Background

lydcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

Plaintiff argues his constitutional rights were violated related to his arrest in 1999. He alleges he was
illegally arrested without probable cause or a warrant and was illegally questions and detained. He
alleges the court did not have jurisdiction over him because he had not committed any federal
offenses. Plaintiff seeks monetary damages and injunctive relief. Id. at 11.
II. Discussion
A. Standard of Review
Plaintiff filed his complaint pursuant to 28 U.S.C. § 1915, which permits an indigent litigant to
commence an action in federal court without prepaying the administrative costs of proceeding with
the lawsuit. To protect against possible abuses of this privilege, the statute allows a district court to
dismiss a case upon a finding that the action fails to state a claim on which relief may be granted or
is frivolous or malicious. 28 U.S.C. § 1915(e)(2)(B)(i), (ii). A finding of frivolity can be made where
the complaint lacks an arguable basis either in law or in fact. Denton v. Hernandez, 504 U.S. 25, 31,
112 S. Ct. 1728, 118 L. Ed. 2d 340 (1992). A claim based on a meritless legal theory may be
dismissed sua sponte under 28 U.S.C. § 1915(e)(2)(B). See Neitzke v. Williams, 490 U.S. 319, 327,
109 S. Ct. 1827, 104 L. Ed. 2d 338 (1989).
Pro se complaints are held to a less{2018 U.S. Dist. LEXIS 3} stringent standard than those drafted
by attorneys. Gordon v. Leeke, 574 F.2d 1147,1151 (4th Cir. 1978). A federal court is charged with
liberally construing a complaint filed by a pro se litigant to allow the development of a potentially
meritorious case. Erickson v. Pardus, 551 U.S. 89, 94, 127 S. Ct. 2197, 167 L. Ed. 2d 1081 (2007).
In evaluating a pro se complaint, the plaintiffs allegations are assumed to be true. Fine v. City ot
N.Y., 529 F.2d 70, 74 (2d Cir. 1975). The mandated liberal construction afforded to pro se pleadings
means that if the court can reasonably read the pleadings to state a valid claim on which the plaintiff
could prevail, it should do so. Nevertheless, the requirement of liberal construction does not mean
the court can ignore a clear failure in the pleading to allege facts that set forth a claim currently
cognizable in a federal district court. Weller v. Dep't of Soc. Servs., 901 F.2d 387, 390-91 (4th Cir.
1990).
B. Analysis
1. Heck bars Plaintiff's claims related to his conviction and sentence
Plaintiffs claims concerning his alleged false arrest and imprisonment are barred by the holding in
Heck v. Humphrey, 512 U.S. 477, 114 S. Ct. 2364, 129 L. Ed. 2d 383 (1994). In Heck, the United
States Supreme Court held that to recover damages for imprisonment in violation of the Constitution,
the imprisonment must first be successfully challenged:
We hold that, in order to recover damages for allegedly unconstitutional conviction or
imprisonment, or for other harm whose unlawfulness{2018 U.S. Dist. LEXIS 4} would render a
conviction or sentence invalid, ... a § 1983 plaintiff must prove that the conviction or sentence
has been reversed on direct appeal, expunged by executive order, declared invalid by a state
tribunal authorized to make such a determination, or called into question by a federal court's
issuance of a writ of habeas corpus, 28 U.S.C. § 2254. A claim for damages bearing that
relationship to a conviction or sentence that has not been so invalidated is not cognizable under
§ 1983.Id. at 486-87. In addressing a damages claim, "the district court must consider whether a
judgment in favor of the plaintiff would necessarily imply the invalidity of his conviction or
sentence; if it would, the complaint must be dismissed unless the plaintiff can demonstrate that
the conviction or sentence has already been invalidated." Heck, 512 U.S. at 487. This is known
as the "favorable termination" requirement. See Wilson v. Johnson, 535 F.3d 262, 263 (4th Cir.

lydcases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

3

t

2008). The preclusive rule in Heck likewise bars declaratory and injunctive relief if a judgment in
the plaintiffs favor would necessarily imply the invalidity of the conviction. See Edwards v.
Balisok, 520 U.S. 641, 648, 117 S. Ct. 1584, 137 L. Ed. 2d 906 (1997) (Heck bars declaratory
judgment action challenging validity of state criminal conviction); Harvey v. Horan, 278 F.3d 370,
375 (4th Cir. 2002) (applying Heck to claims for injunctive relief), abrogated on other
grounds{2018 U.S. Dist. LEXIS 5} by Skinner v. Switzer, 562 U.S. 521, 131 S. Ct. 1289,
1298-1300, 179 L. Ed. 2d 233 (2011).
Judgment in Plaintiff's favor on his false arrest and imprisonment claims would necessarily imply the
invalidity of his subsequent conviction on drug conspiracy charges. See USA v. Harriot. No.
3:99-cr-341-MBS-3 (April 30, 2001 ).1 Because Plaintiff fails to demonstrate or allege he has
successfully challenged his convictions, Heck bars his claims. The undersigned recommends these
claims be summarily dismissed.
2. Statute of Limitations

t

Plaintiff's civil rights claims are also barred by South Carolina's statute of limitations. See Wallace v.
Kato, 549 U.S. 384, 387,127 S. Ct. 1091, 166 L. Ed. 2d 973 (2007) ("[Fjederal law looks to the law
of the State in which the cause of action arose" to determine the applicable statute of limitations);
Burnett v. Grattan, 468 U.S. 42, 48-49, 104 S. Ct. 2924, 82 L. Ed. 2d 36 (1984). Under South
Carolina law, the statute of limitations for a personal injury claim is three years. See S.C. Code Ann.
§ 15-3-530(5). Because the allegations in Plaintiff's complaint concern events that occurred in July
1999, the limitations period for Plaintiff to file suit against Defendants has expired.2 See Finch v.
McCormick Corr. Inst., C/A No. 4:11-858-JMC-TER, 2012 U.S. Dist. LEXIS 96631, 2012 WL
2871665, at *3 (D.S.C. June 15, 2012) (granting summary judgment finding claim raised pursuant to
42 U.S.C. § 1983 fell outside the three-year South Carolina statute of limitation), adopted by 2012
U.S. Dist! LEXIS 96383, 2012 WL 2871746 (D.S.C. July 12, 2012). Accordingly, the undersigned
recommends Plaintiffs{2018 U.S. Dist. LEXIS 6} remaining civil rights claims be summarily
dismissed.
3. Futility
The undersigned finds Plaintiff cannot cure the deficiencies in his complaint by amendment. Plaintiff
has not shown he has successfully challenged his convictions and his civil rights claims are barred
by the statute of limitations. Accordingly, any amendment would be futile.
III. Conclusion and Recommendation
For the foregoing reasons, the undersigned recommends that the court dismiss the complaint without
issuance and service of process.
IT IS SO RECOMMENDED.
November 29, 2018
Columbia, South Carolina
Is! Shiva V. Hodges
Shiva V. Hodges
United States Magistrate Judge
Footnotes

f

lydcases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

4

l

1
The court takes judicial notice of Petitioner's prior cases. See Colonial Penn Ins. Co. v. Coil, 887
F.2d 1236, 1239 (4th Cir. 1989) ("The most frequent use of judicial notice of ascertainable facts is in
noticing the content of court records.") (citation omitted).
2
While the statute of limitations is an affirmative defense that is subject to waiver if not timely raised
in a responsive pleading, the court is authorized to anticipate clearly-apparent affirmative defenses
available to defendants in determining whether, under § 1915, process should be issued. Todd v.
Baskerville, 712 F.2d 70, 74 (4th Cir. 1983).
t

*

lydcases

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

»

96039071

